TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Additional Process Improvements
                    Are Needed Due to Continued Growth in
                     the Voluntary Correction Program for
                               Retirement Plans




                                       December 11, 2009

                              Reference Number: 2010-10-012




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         December 11, 2009


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Process Improvements Are Needed
                             Due to Continued Growth in the Voluntary Correction Program for
                             Retirement Plans (Audit # 200910015)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS) efforts
 to 1) improve the efficiency of processing Employee Plans Voluntary Correction Program (VCP)
 cases to ensure timely processing and 2) increase participation through outreach efforts. The
 former Tax Exempt and Government Entities Division Commissioner requested this review,
 which was part of the Treasury Inspector General for Tax Administration’s
 Fiscal Year (FY) 2009 Annual Audit Plan coverage under the major management challenge of
 Tax Compliance Initiatives.

 Impact on the Taxpayer
 The VCP permits retirement plan sponsors to pay a fee and receive the IRS’ approval for
 correction of retirement plans any time before an audit. While the IRS has taken actions that
 have significantly reduced the number of calendar days required to process VCP applications,
 further improvements will be needed due to increased customer demand, reduced staffing, and
 the significant number of applications not being closed within timeliness goals. Providing timely
 service on VCP applications is important because correcting errors in a timely and efficient
 manner protects the favorable treatment of employees’ retirement benefits and reduces the
 uncertainty of any potential tax liabilities for both employees and retirement plan sponsors.
                   Additional Process Improvements Are Needed Due to Continued
                   Growth in the Voluntary Correction Program for Retirement Plans




Synopsis
To assist retirement plan sponsors, the Employee Plans function completed a significant number
of actions to promote the VCP with preparers and sponsors responsible for administering
retirement plans. While we could not determine whether there is a direct link between outreach
activities and the number of VCP applications received, we have noted that increased outreach
activities have corresponded with an increasing number of VCP applications being received.
The number of VCP applications increased nearly 60 percent (from 1,877 to 2,973) between
FYs 2006 and 2008.
To meet the increased customer demand, VCP management made several changes to
VCP applications and procedures that reduced processing time from 379 to 195 calendar days,
nearly 50 percent. In addition, VCP management addressed a key Pension Protection Act of
2006 1 provision by continually updating and improving the system of correction programs
already available and making the programs more accessible to small business employers.
However, about 22 percent of applications were still not being closed within timeliness goals in
FY 2008, and there is no guarantee that future budgets and priorities will allow for increased
staffing to work the growing number of applications. Taking these factors into account,
additional processing improvements will need to be made to cut down on the time it takes to
process certain applications and handle the increasing volume of applications.
Providing timely service on VCP applications allows plan sponsors to make needed changes and
ensures that both employees and plan sponsors continue to receive favorable treatment for
retirement benefits. Based on our review of 220 VCP applications that were closed in FY 2008
and interviews with VCP personnel, we identified 5 areas where we believe additional
processing improvements can be made that will further improve the Employee Plans function’s
ability to timely process VCP applications.

Recommendation
To ensure the VCP provides timely service to those in the retirement plan community who are
voluntarily attempting to bring their retirement plan into compliance with tax-exempt laws, we
recommended the Director, Employee Plans: a) reinforce the need for staff conducting the initial
screening of VCP applications to determine whether case files have all needed information,
b) expand the “streamlined” application process to include more common types of failures,
c) expand the VCP Revenue Procedure to include a checklist that provides retirement plan
sponsors with specific options they can use to identify the type of plan failure, d) analyze the
staffing mix for VCP revenue agent groups to determine the most effective mix of positions and


1
    Pub. L. No. 109-280, 120 Stat. 1055.
                                                                                                   2
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



responsibilities, and e) survey retirement plan sponsors upon completion of the VCP process to
ask how it could be improved.

Response
Tax Exempt and Government Entities Division management agreed with our recommendation and
outlined several planned corrective actions, as well as one alternative corrective action. They have
hired additional staff and created a hiring proposal for FYs 2010 through 2012 based on a review of
the current staffing mix to improve initial screening and processing timeliness. Management also
agreed with our recommendation to expand the streamlined application process and plans to seek
input from stakeholders to develop process improvements. Lastly, they plan to develop a survey to
obtain feedback on an ongoing basis to identify and make further improvements to the VCP.
Management’s complete response to the draft report is included as Appendix IV.

Office of Audit Comment
Tax Exempt and Government Entities Division management provided an alternate corrective action
for our recommendation to expand the VCP Revenue Procedure to include a checklist that
provides retirement plan sponsors with specific options for identifying the type of retirement
plan failure that led to the VCP application and the actions they are taking to correct them. We
recommended this as an interim step until a VCP application form could be developed. Tax
Exempt and Government Entities Division management commented that it currently has two sample
application forms (one for streamlined applications and another for more complex plan failures). Tax
Exempt and Government Entities Division management plans to gain experience with these forms
and create an official IRS form. Since management has developed sample application forms which
include the information we recommended, we agree with the IRS’ alternate corrective action.
Copies of this report are also being sent to the IRS managers affected by the report recommendations.
Please contact me at (202) 622-6510 if you have questions or Nancy Nakamura, Assistant
Inspector General for Audit (Management Services and Exempt Organizations), at
(202) 622-8500.




                                                                                                       3
                    Additional Process Improvements Are Needed Due to Continued
                    Growth in the Voluntary Correction Program for Retirement Plans




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          A Significant Number of Outreach Activities Were Completed
          and the Number of Voluntary Correction Program Applications
          Received Has Increased ................................................................................Page 5
          The Employee Plans Function Has Reduced the Time Needed
          to Process Voluntary Correction Program Applications...............................Page 8
          Additional Actions Are Needed to Improve Voluntary
          Correction Program Case Processing Efficiency..........................................Page 11
                    Recommendation 1:........................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 19
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Management’s Response to the Draft Report ......................Page 24
      Additional Process Improvements Are Needed Due to Continued
      Growth in the Voluntary Correction Program for Retirement Plans




                      Abbreviations

EP              Employee Plans
FTE             Full-Time Equivalent
FY              Fiscal Year
IRS             Internal Revenue Service
VCP             Voluntary Correction Program
                 Additional Process Improvements Are Needed Due to Continued
                 Growth in the Voluntary Correction Program for Retirement Plans




                                            Background

The Internal Revenue Code provides significant tax incentives for retirement plan sponsors that
establish and maintain retirement plans that comply with Internal Revenue Code requirements.
Generally under these plans, income set aside for retirement is deductible by employers and not
taxable to employees until distributed after retirement. By statute, plan sponsors not properly
maintaining retirement plans can lose the tax-exempt status of these deductions. In addition,
employees whose funded benefits have grown tax-free lose the right to protect their benefits
from current taxation.
In 1998, the Internal Revenue Service (IRS) consolidated a set of programs designed to assist
plan sponsors whose retirement plans had been noncompliant with applicable Internal Revenue
Code requirements. The Employee Plans (EP) Compliance Resolution System is a
comprehensive group of correction programs available to retirement plan sponsors to correct
Qualification Failures 1 while continuing to provide employees with retirement benefits on a
tax-exempt basis. The three components of the EP Compliance Resolution System are:
(1) Self-Correction Program: Permits retirement plan
    sponsors to correct plan failures without contacting
    the IRS or paying a fee.
                                                                     The Voluntary Correction Program
(2) Voluntary Correction Program (VCP): Permits                      allows retirement plan sponsors to
    retirement plan sponsors to pay a fee and receive                inform the IRS about certain types
    the IRS’ approval for correction of plan failures                 of errors in their plans and obtain
                                                                     approval of their proposed method
    any time before an audit.                                                for correcting them.
(3) Audit Closing Agreement Program: Permits
    retirement plan sponsors to pay a tax as a sanction
    and correct a plan failure while the plan is being
    audited by the IRS.
Sponsors of retirement plans apply to operate their plans as tax exempt by submitting to the IRS
a retirement “plan document” that describes how the plan is organized and how it should operate.
Because of frequent tax law changes, retirement plan documents require periodic revision to
ensure retirement plans remain in compliance with all current regulations. If changes are not
made timely or the retirement plan sponsor determines that their retirement plan is not operating
in accordance with tax-exempt laws, the plan sponsor may prepare a VCP application for
submission to the IRS. The application, required fee, and all information required by Revenue

1
 A Qualification Failure occurs when a plan does not meet all Internal Revenue Code requirements in a manner that
adversely affects the qualification of the plan for tax-exempt status.
                                                                                                         Page 1
                  Additional Process Improvements Are Needed Due to Continued
                  Growth in the Voluntary Correction Program for Retirement Plans



Procedure 2008-50 2 are then sent to the EP function offices located in Washington, D.C., where
EP function staff remove and deposit remittances for the associated VCP fees and forward the
application to a VCP assistant who “pre-screens” the application for obvious omissions.
If the VCP application was submitted as a “streamlined” application, 3 it could be worked by
EP function staff at either the National Headquarters or one of four IRS area offices. 4 While
most non-streamlined applications are examined by revenue agents in the field offices, revenue
agents in the National Headquarters review applications involving more complex issues. If
EP function staff agree that the actions proposed by a retirement plan sponsor to bring a
retirement plan back into compliance are adequate, the EP function issues a “compliance
statement,” which serves as the IRS’ written concurrence to the corrective actions proposed for
the retirement plan.
The VCP experienced significant growth from Fiscal Year (FY) 2006 to FY 2008. As shown in
Figure 1, while the number of VCP applications increased nearly 60 percent, the number of
resources, or full-time equivalents (FTE), 5 dedicated to the program dropped 37 percent during
this same period.




2
  I.R.B. 2008-35, 464.
3
  Streamlined applications involve common retirement plan errors that can be corrected quickly.
4
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
5
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FYs 2006 and 2007, 1 FTE was equal to 2,080 staff hours. For FY 2008, 1 FTE was
equal to 2,096 staff hours.
                                                                                                              Page 2
                                  Additional Process Improvements Are Needed Due to Continued
                                  Growth in the Voluntary Correction Program for Retirement Plans



                                Figure 1: Total VCP Applications Compared to VCP Resources
                                                    (FY 2006 to FY 2008)

                        3,500                                                                                  35


                        3,000                                                                                  30
                                        30                           26
                                                                                                 2,973
                        2,500                                                                                  25
     VCP Applications




                                                                 2,604
                        2,000                                                                                  20




                                                                                                                    FTEs
                                       1,877                                                       19
                        1,500                                                                                  15


                        1,000                                                                                  10


                         500                                                                                   5

                           0                                                                                   0
                                       FY 2006                   FY 2007                         FY 2008

                                                  VCP Applications         FTEs Dedicated to the VCP

    Source: EP Compliance Resolution System Research and Inventory Management System,
    November 2008 Business Performance Review. 6

The former Tax Exempt and Government Entities Division Commissioner recommended we
perform an audit of VCP case processing procedures to identify potential suggestions that would
assist with reducing the time needed to process cases and reduce inventory. We determined that
the VCP accounts for about 80 percent of EP Compliance Resolution System cases. As a result,
we limited our review to the VCP portion of the EP Compliance Resolution System.
This audit was conducted while changes were being made to the VCP, such as moving certain
types of cases to another program within the EP function. As a result, this report might not
reflect the most current status of the EP function’s VCP.
This review was performed at the EP function’s National Headquarters in Washington, D.C., and
also included interviews of VCP group managers and revenue agents from Baltimore, Maryland;
Brooklyn, New York; Chicago, Illinois; Dallas, Texas; El Monte, California; Evansville, Indiana;
Philadelphia, Pennsylvania; and Seattle, Washington.
We conducted this performance audit during the period November 2008 through June 2009 in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable

6
 This information was not independently verified because the accuracy of these statistics did not affect the
accomplishment of our audit objective.
                                                                                                                   Page 3
              Additional Process Improvements Are Needed Due to Continued
              Growth in the Voluntary Correction Program for Retirement Plans



basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans




                                Results of Review

The Employee Plans function has completed a significant number of actions to promote the
VCP. In addition, VCP management has taken actions that have significantly reduced the
number of calendar days required to process VCP applications, from 379 calendar days in
FY 2006 to 195 calendar days in FY 2008. However, about 22 percent of applications were still
not being closed within timeliness goals in FY 2008. In addition, the number of
VCP applications has increased nearly 60 percent from 1,877 applications in FY 2006 to
2,973 applications in FY 2008, and there is no guarantee that future budgets and priorities will
allow for increased staffing. Taking these factors into account, additional processing
improvements will need to be made to cut down on the time it takes to process certain
applications and handle the increasing volume of applications.
Providing timely service on VCP applications is important because correcting errors in a timely
and efficient manner protects the favorable treatment of employees’ retirement benefits and
reduces the uncertainty of any potential tax liabilities for both employees and plan sponsors.
Based on our review of 220 VCP applications that were closed in FY 2008 and interviews with
VCP personnel, we identified 5 areas where we believe additional processing improvements can
be made that will further improve the EP function’s ability to timely process VCP applications.

A Significant Number of Outreach Activities Were Completed and the
Number of Voluntary Correction Program Applications Received Has
Increased
The EP function strives to provide retirement plan sponsors with information on the laws and
processes for receiving and maintaining tax-exempt status and assist with correcting mistakes
that may occur during plan administration. To assist retirement plan sponsors, the EP function
completed a significant number of actions to promote the VCP with preparers and sponsors
responsible for administering retirement plans. While we could not determine whether there is a
direct link between outreach activities and the number of VCP applications received, we have
noted that increased outreach activities have corresponded with an increased number of
VCP applications being received. The following are several of the outreach activities that have
been completed by the EP function.
•   Creating “Fix-It Guides.”
•   Conducting workshops at IRS Tax Forums and providing presentations to practitioner
    groups.



                                                                                          Page 5
                 Additional Process Improvements Are Needed Due to Continued
                 Growth in the Voluntary Correction Program for Retirement Plans



•   Creating newsletters.
•   Responding to Advisory Committee on Tax Exempt and Government Entities
    recommendations.
Collectively, these actions address a key Pension
Protection Act of 2006 7 provision: continually
                                                             The EP function addressed a key
updating and improving the system of correction               Pension Protection Act of 2006
programs already available and making the programs          provision by increasing activities to
more accessible to small business employers. Media                   promote the VCP.
coverage related to the September 2008 revision of the
procedures for submitting a VCP application included
very favorable comments about the IRS’ continued efforts to improve the program and make it
more accessible to small business employers by simplifying the application process.

Creating “Fix-It Guides”
In response to customer feedback, the EP function’s “Correcting Plan Errors” webpage includes
user-friendly “Fix-It Guides” with tips on how to find, fix, and avoid common mistakes in
retirement plans. The Fix-It Guides detail the most common mistakes that the IRS sees and how
to find them, fix them, or prevent them from happening. This document is geared to retirement
plan sponsors of both sophisticated larger employers and also less sophisticated smaller
employers, as the guides are designed to identify and correct very common errors.
Data provided by the EP function showed the “Correcting Plan Errors” webpage 8 averaged
3,664 accesses per month during 2008 versus 3,362 per month in 2006, an increase of 9 percent. 9
The “Correcting Plan Errors” webpage also includes fill-in “streamlined application” forms. In
addition, video instructions from the VCP manager are available to assist retirement plan
sponsors with using the Fix-It Guides.

Conducting workshops and providing presentations
The EP function staff delivered 93 presentations and exhibits to an estimated 43,500 event
attendees between FY 2006 and FY 2008. 10 While the number of events attended remained

7
   Pub. L. No. 109-280, 120 Stat. 1055.
8
  The EP function’s “Tax Information for Retirement Plans Community” webpage contains information on a variety
of topics for the Retirement Plan Community, including a detailed description of the VCP via links to the
“Correcting Plan Errors” webpage and Revenue Procedure 2008-50.
9
  This information was not verified because there was no independent source of data to validate the number of
accesses to the webpage.
10
   While many of these presentations included information about the VCP, there is no means of positively
correlating how many people attended presentations that included VCP-related information. In addition, this
information was not verified because there was no independent source of data to validate the number of
presentations and attendees.
                                                                                                       Page 6
                 Additional Process Improvements Are Needed Due to Continued
                 Growth in the Voluntary Correction Program for Retirement Plans



stable during this period, the total number of customers reached increased by nearly 60 percent.
These presentations are usually made by VCP revenue agents at the request of various
practitioner groups, such as the American Institute of Certified Public Accountants, and include
general information about the types of retirement plans available, the process of obtaining
tax-exempt status, and some of the more common problems practitioners may experience when
setting up and administering a retirement plan.
In addition to the general presentations, EP function staff developed a Retirement Plan Pitfalls
Workshop that was presented at each of the six IRS Nationwide Tax Forums in FY 2008. The
workshop was developed to encourage small-business practitioners to use online IRS Fix-It
Guides.
The workshop sessions also provided practitioners with the opportunity to ask questions about
specific issues they may be dealing with or are having difficulty resolving. According to
IRS documentation, more than 300 (61 percent) of the 493 attendees at the workshops completed
the surveys and indicated an overwhelmingly positive response to the materials presented. For
example, nearly 90 percent of the respondents felt the material was helpful in understanding how
to find and fix errors in their retirement plans.

Creating newsletters
The EP function publishes two newsletters that have frequent articles on current VCP issues.
These are available on the EP function’s “Retirement Plans Community” webpage.
•    The Retirement News for Employers newsletter is designed for employers/business owners
     and their tax advisors. This newsletter provides practical retirement plan information and
     every issue contains VCP-related information. From the beginning of FY 2006 to the end of
     FY 2008, there was an increase of more than 300 percent in the number of newsletter
     subscriptions (from 7,868 to 33,663 per month). 11
•    The Employee Plans News is geared toward retirement plan practitioners (attorneys,
     accountants, actuaries, and others) and presents information about retirement plans. The
     average number of queries of this newsletter increased nearly 30 percent between FYs 2006
     and 2008. The majority of this growth took place during FY 2008, when the number of
     queries increased from 22,000 per month to nearly 44,000 per month. 12




11
   Information on newsletter accesses and queries could not be verified because there was no independent source of
data available for verification.
12
   Information on newsletter accesses and queries could not be verified because there was no independent source of
data available for verification.
                                                                                                           Page 7
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



Responding to Advisory Committee on Tax Exempt and Government Entities
Recommendations
The Advisory Committee on Tax Exempt and Government Entities was established in May 2001
to provide a public forum for discussion of relevant issues between IRS officials and
representatives of the entities served by the Tax Exempt and Government Entities Division. This
provides a means for the IRS to receive regular input on developing and implementing
IRS policy issues related to these groups.
In June 2008, the Committee issued its annual report with seven VCP-related recommendations,
and the EP function has completed or is working the majority of these recommendations. For
example, EP is working to establish a new program that would allow retirement plan sponsors to
submit a notice that a VCP application is forthcoming and, in the event of an audit in the interim,
the notice would allow the sponsor to be treated as though a VCP application was actually filed.

The Employee Plans Function Has Reduced the Time Needed to
Process Voluntary Correction Program Applications
To meet increased customer demand, the EP function made several changes to VCP applications
and processing procedures that increased application closures and reduced application processing
time. For example, receipts of VCP applications have increased nearly 60 percent between
FY 2006 and FY 2008, while the resources devoted to the program dropped by 37 percent.
However, despite the reduction in VCP staff, the EP function was able to reduce both the amount
of time needed to review and evaluate VCP applications as well as the in-process inventory of
VCP applications assigned to revenue agents. These improvements resulted from several actions
by EP function management and are discussed in the following sections.

The EP function completed a process analysis study and created a streamlined
application process
During FY 2007, VCP management implemented the recommendations of a process analysis
team, which contributed to a 42 percent reduction in the time taken to complete work on a
VCP application. These improvements, made at the group level, included having the
VCP coordinators or group managers close some cases based solely on information included
with the VCP application, allowing certain cases to bypass a review by the VCP coordinator
while still being reviewed by the group manager.
Also, EP function management worked to update the VCP Revenue Procedure in both FY 2007
and FY 2008 to implement and further improve the streamlined application process. Following
these changes, VCP closures increased by more than 10 percent. Our analysis of management
information data showed the relative small number of hours used to close streamlined cases
accounted for decreases of 61 and 71 calendar days needed to process a VCP application during
FY 2007 and FY 2008, respectively.

                                                                                            Page 8
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



In addition, overall VCP application processing time dropped by 184 days (nearly 50 percent)
between FY 2006 and FY 2008. As shown in Figure 2, most of these improvements can be
attributed to implementing the streamlined application process in FY 2007.
     Figure 2: Average Calendar Days Required to Process VCP Applications
                        From FY 2006 Through FY 2008
               400
                           379
                                                       296
                                                                                       266
               300
                                                       270

                                                       235                             250
               200
                                                                                        195


               100
                            FY 2006                     FY 2007                        FY 2008

                                  Average Calendar Days - All VCP Applications
                                  Average Calendar Days - Excluding “Streamlined” VCP Applications
                                  Calendar Day Goal (Note: No goal established for FY 2006)

            Source: EP Compliance Resolution System Research and Inventory Management System
            database, November 2008 Business Performance Review.

Making these changes improved customer service by providing more timely responses to
retirement plan sponsors who submitted VCP applications and also allowed sponsors to reduce
the amount of time that their plans were not in compliance with tax-exempt statutes. This
reduces a retirement plan’s risk of losing tax-exempt status or suffering revenue losses for
penalties and/or taxes.

The EP function changed the way it processed applications that included a
determination letter request
When submitting a VCP application, retirement plan sponsors may sometimes need to obtain the
IRS’ assurance that their retirement plan is designed to comply with applicable tax-exempt laws
by requesting an IRS determination letter. The determination letter process is a key interaction
with the IRS because a favorable determination letter gives retirement plan sponsors assurance
their retirement plans qualify for favorable tax treatment, as long as the plan operates under the
terms on which the determination letter was issued.
In the past, revenue agents in VCP groups simultaneously worked both VCP applications and
any related determination letter requests to provide retirement plan sponsors with a “one-stop
shopping” approach. While we applaud the IRS’ efforts to provide a one-stop shopping
approach, we noted that VCP revenue agents often did not have the full skill set needed to
                                                                                                     Page 9
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



process determination letter requests and would need to consult with EP Determinations program
personnel to ensure the determination letter request was completed satisfactorily. In addition, the
inclusion of a determination letter request with a VCP application often increased the amount of
time it took to process VCP applications.
The EP function completed a study in February 2009 which proposed changes to how it
processes VCP applications with related determination letter requests. This was based on the
premise that the EP Determinations program was better equipped to deal with issues related to
retirement plan documents that were not timely amended. As a result of the study, when a
VCP application is received with a determination letter request, the Determinations program will
address the determination letter request and the VCP will address the remainder of the
VCP application. This change was intended to provide more timely processing of
VCP applications by eliminating the need for VCP revenue agents to evaluate determination
letters.
Based on our analysis of VCP applications that were closed in FY 2008, this action should
further improve the number of calendar days needed to process a VCP application. For example,
547 (22 percent) of 2,492 VCP applications closed during FY 2008 had a related determination
letter request. Figure 3 illustrates the potential additional improvement in the number of
calendar days required to process a VCP application by comparing calendar days for
VCP applications received with and without a related determination letter request.
 Figure 3: Average Calendar Days to Process VCP Applications Received During
           FY 2008 – With and Without a Determination Letter Request
                                Calendar Days         Calendar Days
                                  to Process            to Process         Additional Calendar Days
                               VCP Applications      VCP Applications         Needed to Process
                                    With a              Without a          VCP Applications With a
                                Determination         Determination          Determination Letter
                                Letter Request        Letter Request               Request
   Average Calendar Days to
                                      289                   168                       121
   Review VCP Applications
 Source: Analysis of the EP Compliance Resolution System Research and Inventory Management System
 database.




                                                                                                    Page 10
              Additional Process Improvements Are Needed Due to Continued
              Growth in the Voluntary Correction Program for Retirement Plans




Additional Actions Are Needed to Improve Voluntary Correction
Program Case Processing Efficiency
While VCP management has taken actions that have significantly reduced the number of
calendar days required to process VCP applications, further improvements will be needed to
increase the number of VCP applications that receive timely service. One of the EP function’s
FY 2008 and FY 2009 Work Plan priorities is to improve customer service by reducing
VCP application inventory and processing time. The FY 2008 and FY 2009 goal for processing
VCP applications was 250 days and 225 days, respectively.
Our analysis showed that the VCP did not always meet
its timeliness goals. For example, in FY 2008,
543 (22 percent) of the 2,492 closed VCP applications       We identified five opportunities for
exceeded the 250 calendar day goal in the EP function’s     further improving the timeliness of
Work Plan. Opportunities to improve the number of              VCP application processing.
VCP applications processed within the EP function’s
established goals are discussed in the sections that
follow.

Screeners who review incoming VCP applications do not determine whether all
information is provided
Once VCP application cases are received by revenue agents in field offices, many require
followup with the retirement plan sponsor to obtain documentation not provided with the original
application. VCP procedures require screeners to look for obvious omissions in applications as
they are received; however, the scope of their review is very limited due to the large volume of
applications received and the limited number of staff available to review them.
We determined that 91 (41 percent) of the 220 closed VCP applications included at least
1 request for additional information. In total, these 220 cases included 394 instances where
revenue agents requested additional information. An in-depth review of the 10 most common
types of information requested showed that 8 were included on a checklist of everything required
to be submitted with a VCP application, which is contained in the VCP Revenue Procedure.
This indicates that some retirement plan sponsors are unaware of IRS information about the
types of information not included with the VCP application. Figure 4 provides the results of our
analysis.




                                                                                         Page 11
                    Additional Process Improvements Are Needed Due to Continued
                    Growth in the Voluntary Correction Program for Retirement Plans



                             Figure 4: Analysis of Additional Information
                             Requested From Retirement Plan Sponsors
                                                                                                           Requested
                                                                                                          Information
                                                                                             Percentage      on VCP
                                                                                   Total        of all     Checklist
Ten Most Common Types of Additional Information Requested                         Requests    Requests      (Yes/No)
Plan Details                                                                        49         12.4%         Yes
Failure Specifics and Steps to Prevent It in the Future                             45         11.4%         Yes
Error Correction/Interest Calculations and Terms                                    25         6.3%          Yes
Compliance Statement Sent to Power of Attorney to Be Reviewed                       24         6.1%          No
Standard VCP Forms                                                                  21         5.3%          Yes
Individual Participants Information (Contributions, Personal Information, etc.)     20          5.1%         No
Payroll Correction/Match Correction Calculation                                     14          3.6%         Yes
Request Additional Fees                                                             11         2.8%          Yes
Taxpayer Financial Information/Assets                                               11         2.8%          Yes
Number of Affected Participants                                                      9         2.3%          Yes

Total Requests for the Ten Most Common Types of Additional Information            229       58.1%
Other Types of Information Requested                                              165       41.9%
Total Number of Requests for Additional Information                               394
Source: Analysis of a judgmental sample of 220 VCP application files closed during FY 2008.

  While VCP procedures require screeners to scan for obvious omissions in applications as they
  are received, the scope of their review is very limited due to the large volume of applications
  received and the limited number of staff available to review them. Also, since the majority of
  VCP applications are received during a relatively short time period (usually in late January and
  early February), there are very large spikes in receipts. During these periods, revenue agents
  from nearby offices assist the three Washington, D.C., screeners with the screening process.
  However, even with these additional employees, the heavy volume of incoming
  VCP applications, combined with limited staff to review them, necessitate that screeners conduct
  a limited initial review.
  While it is understandable why the screening of applications is limited, we believe performing a
  more thorough upfront screening would be worthwhile because having revenue agents in field
  offices subsequently request additional information significantly increases case processing time.
  As shown in Figure 5, our analysis of 220 sample application cases showed a 200 percent
  increase in the average number of calendar days needed to process a VCP application (from
  104 days to 316 days) when revenue agents had to request additional information from
  retirement plan sponsors.




                                                                                                           Page 12
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



     Figure 5: Impact on Case Processing Time When Additional Information
                  Is Requested From Retirement Plan Sponsors




                        0           100           200           300        400

                                 Average Calendar Days to Process


                                    No Additional Information Requested
                                    Additional Information Requested

                      Source: Analysis of a judgmental sample of 220 VCP
                      application files closed during FY 2008.

The streamlined application process does not include some frequent types of
errors that cause retirement plan sponsors to submit VCP applications
The VCP Revenue Procedure lists the errors retirement plan sponsors can correct via the
streamlined process. However, we identified additional frequent errors that are not included in
the streamlined process. If the streamlined process was expanded to include additional types of
retirement plan errors, application processing time would be further reduced.
Between its inception in 2006 and the latest update in 2008, the streamlined process has evolved
to include more types of errors. For example, initially the only error eligible for streamlined
processing was related to not timely amending retirement plans to reflect tax law changes. The
latest Revenue Procedure included eight additional schedules with errors that can be corrected
using this process.
The streamlined application process has improved service by reducing the amount of time
needed to process applications with common and oftentimes easily resolved issues. For
example, nearly 70 percent of all VCP closures in FY 2008 were submitted using the streamlined
procedure. However, the IRS would realize additional benefit by continuing to expand the
process to include additional types of common errors.
At the present time, the EP function has not fully identified all types of errors that could be
processed using streamlined procedures. For example, several VCP staff we interviewed thought
that opportunities existed to expand the streamlined application process to include additional
types of plan failures.
Continuing to increase the number and types of errors eligible for streamlined processing
benefits both retirement plan sponsors and the IRS by providing a more timely, efficient, and less
cumbersome option for retirement plan sponsors to correct errors.
                                                                                          Page 13
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



Checklists in the Revenue Procedure do not include a list of options that clearly
identifies the type(s) of errors that would result in submitting a VCP application
The VCP Revenue Procedure includes a series of forms and checklists to assist retirement plan
sponsors and their representatives in preparing an application and ensuring it contains all
required information. However, when analyzing the information provided, VCP staff often have
difficulty identifying the specific issue(s) which led to the VCP application being submitted. For
example, VCP applications usually have many attachments that provide additional details about
the error(s) leading to the VCP application and can be very lengthy. Revenue agents must sort
through large amounts of data to locate specific pieces of information needed to clearly identify
and understand the exact nature of both the retirement plan failure and the proposed method of
making corrections.
The forms used for a VCP application do not include a list of options to identify the type of
retirement plan failure or the proposed corrective action. The VCP Program Manager views
Appendices D and F of the current Revenue Procedure as its VCP “application forms,” while
Appendix C helps retirement plan sponsors ensure the application is complete.
VCP management plans to make these forms “official” after gaining more experience and
perfecting them.
Having an application form specific to the VCP would provide a means of more clearly
identifying the nature of the plan failure and proposed corrective action. Doing so would
improve the review process by reducing the amount of time needed to locate this information in
documentation provided with the VCP application.

The staffing mix for VCP revenue agent groups has not been analyzed
In addition to the VCP, there are two other groups staffed by revenue agents in the EP function.
These are the Examinations program (where revenue agents audit retirement plans to ensure they
are following applicable Internal Revenue Code regulations) and the Determinations program
(where revenue agents assess whether retirement plans qualify for tax-exempt status).
Within the VCP, revenue agents examine VCP applications and determine if proposed corrective
actions will bring retirement plans into compliance with tax-exempt laws. However, there are
some revenue agents who serve as coordinators and provide program support to VCP group
managers. This support consists of advising the manager and other personnel working
VCP applications on the correct fee amounts required for processing a VCP application, the
development of issues associated with the retirement plan failure, the proposed action that will




                                                                                          Page 14
                   Additional Process Improvements Are Needed Due to Continued
                   Growth in the Voluntary Correction Program for Retirement Plans



correct the plan failure, and the drafting of compliance statements notifying the retirement plan
sponsor of the results of the IRS’ review of the VCP application. 13
We compared revenue agent staffing in the Examinations and Determinations programs with the
VCP and identified a relatively large difference (25 and 32 percent, respectively) in the ratio of
revenue agents to supervisors. However, as shown in Figure 6, if plans to hire five additional
revenue agents come to fruition, the VCP would have a far more comparable staffing pattern.
        Figure 6: VCP Revenue Agent Staffing Compared to Similar EP Programs
                                                                                               Difference
                                                Difference           Revised Ratio:             Between
                            Current Ratio:       Between           Revenue Agents to            Revised
                              Revenue          VCP Ratio and      Supervisors (Adding          VCP Ratio
                              Agents to           Other            5 Revenue Agents            and Other
         EP Function         Supervisors       EP Programs            to the VCP)             EP Programs
      VCP                           6.3                                      7.5
      Examinations                  7.8                24%                   7.8                    4%
      Determinations                8.3                32%                   8.3                   11%
     Source: Analysis of the IRS’ Discovery Directory.

Though each program has a different expertise and revenue agents from each of these programs
serve a separate and distinct function in the administration of the overall EP function, the skill
sets of the revenue agents in these programs and the issues they deal with are often similar.
Under the current alignment, every VCP group has about five revenue agents working cases and
one revenue agent serving as a coordinator with either no inventory of cases or a limited
inventory of cases. Conversely, Examinations and Determinations programs have approximately
eight revenue agents working cases in each group. We question why the ratio of revenue agents
working cases to supervisors is significantly lower in the VCP groups.
The VCP Program Manager views the coordinator position as one that is critical to maintaining a
high level of quality in the VCP, since no formal quality review program exists for
VCP application cases and there is a need to balance assurance that applications are processed
accurately with the need to process cases faster. In addition, the VCP Program Manager noted
that other EP function programs (such as Examinations and Determinations) have similar
positions which provide the same type of support and have an entirely separate function devoted
to quality review (one of the primary responsibilities of the coordinator position). However,
since the coordinators are primarily managed within the individual groups and no statistical
information is tracked, it is difficult to measure the impact the position is having on the quality of
case work.


13
  The coordinator also provides input to the National Headquarters analysts on VCP procedure updates, supplies
information to the revenue agents about the procedure updates, and serves as the contact person for customer
inquiries about the VCP.
                                                                                                        Page 15
                 Additional Process Improvements Are Needed Due to Continued
                 Growth in the Voluntary Correction Program for Retirement Plans



The VCP Program Manager also noted that coordinators oftentimes maintain their own inventory
in addition to performing their coordinator responsibilities. However, our analyses showed their
impact on reducing the inventory backlog has been minimal since the four coordinators
combined accounted for only 360 of the closures in FY 2008, and the majority of these closures
involved simpler issues that lower-graded employees could have worked. For example,
VCP management information reports showed that 285 (79 percent) of the 360 cases met the
criteria of work that is typically performed by revenue agents at the GS-11 and GS-12 levels 14
(while all VCP coordinators who worked them were GS-13 revenue agents).
Shifting resources to a span of control that is more consistent with the EP Examinations and
Determinations functions should enable the VCP to work more cases. As the volume of
retirement plans using the VCP increases, there will be a need to devote staff to work the
growing inventories. The EP function may need to consider other options for filling this
resource void by either reducing the number of coordinators or reducing some of the
responsibilities required of the coordinator position so that the coordinators can have a bigger
impact on reducing case inventories. For example, while resources devoted to the VCP dropped
from a total of 30 FTEs in FY 2006 to 19 FTEs in FY 2008, the VCP continued with a structure
that maintained four group managers with each manager having one coordinator.

VCP management has not surveyed customers to obtain feedback for improving
the program
Feedback enables management to identify program deficiencies, address customer service issues,
and recognize opportunities for improvement. A Treasury Inspector General for Tax
Administration report issued in September 2003 15 noted that the Tax Exempt and Government
Entities Division had not established clear, measurable goals for the three EP Compliance
Resolution System programs (including the VCP) or an effective way to measure the impact
educational and marketing efforts have on compliance.
In response, the EP function advised it planned to analyze the feasibility of surveying
VCP applicants to help determine the impact of its outreach efforts. Ultimately, the Tax Exempt
and Government Entities Division decided to forgo this action because of challenges involved
with developing and obtaining approval for using surveys.
There were several focus group sessions held during FY 2008 to obtain input from benefits
groups and professionals. This included identifying areas where the VCP was both working well

14
   VCP applications at the Grade 11 level can be closed quickly based on the information submitted and generally
require no additional contact with the retirement plan sponsor or representative. Cases at the Grade 12 level may
require additional contact with the retirement plan sponsor or representative, but no coordinator approval of
correction method is required. In other words, VCP revenue agents can generally close the case assuming
information in the initial submission will not materially change during the course of their review.
15
   Additional Strategies Are Needed to Ensure the Employee Plans Compliance Resolution System Will Accomplish
Its Intended Purposes (Reference Number 2003-10-190, dated September 12, 2003).
                                                                                                         Page 16
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



or could be improved. In total, the groups made 12 recommendations, 2 of which were included
as updates in the latest VCP Revenue Procedure. However, we did not identify any efforts to
obtain feedback on an ongoing basis from those who have filed a VCP application. By not
conducting surveys to obtain ongoing feedback from VCP customers, the EP function could miss
opportunities to identify and make further improvements to the program.

Recommendation
Recommendation 1: To ensure the VCP provides timely service to those in the retirement
plan community who are attempting to bring their retirement plans into compliance with
tax-exempt laws, the Director, Employee Plans, should:
a. Reinforce the need for staff conducting the initial screening of VCP applications to determine
   whether case files have all needed information prior to sending them to revenue agents in
   field offices for evaluation.
b. Evaluate whether opportunities exist to expand the “streamlined” application process to
   include more common types of failures.
c. Until a VCP application form is developed, expand the VCP Revenue Procedure to include a
   checklist that provides retirement plan sponsors with specific options for identifying the type
   of retirement plan failure that led to the VCP application and the actions they are taking to
   correct them.
d. Analyze the staffing mix for VCP revenue agent groups to determine the most effective mix
   of positions and responsibilities. This analysis should include reviewing the duties of the
   coordinator position and analyzing the span of control between group managers and revenue
   agents.
e. Survey retirement plan sponsors upon completion of the VCP process to determine what
   components of the program worked well and how it could be improved.
   Management’s Response: Tax Exempt and Government Entities Division management
   agreed with our recommendation and outlined several planned corrective actions, as well as one
   alternative corrective action. Tax Exempt and Government Entities Division management also
   provided comments on its corrective actions. Tax Exempt and Government Entities Division
   management’s corrective actions and selected comments are as follows:
   a. Management commented that perfecting VCP applications as much as possible on the
      front-end would promote more efficient case processing by the agents in the groups.
      They hired additional staff for the VCP, which will assist in improving initial screening.
   b. Management commented that they agreed with our recommendation to expand the
      streamlined application process and plans to reevaluate the program and seek input from
      stakeholders in order to continue developing process improvements

                                                                                          Page 17
           Additional Process Improvements Are Needed Due to Continued
           Growth in the Voluntary Correction Program for Retirement Plans



c. Management commented that it has two sample application forms (one for streamlined
   applications and another for more complex plan failures) and stated that, after gaining
   experience with the sample VCP application form and streamlined application form, the
   EP function will finalize them and create an official IRS form.
d. Management analyzed the staffing mix for the VCP. The EP function recently submitted
   a hiring proposal for FYs 2010 through 2012 based on a review of the current staffing
   mix, span of control, and assigned duties. As a result of this proposal, the Tax Exempt
   and Government Entities Division has approved six new hires for FY 2010. The
   additional staffing is intended to promote improved upfront case processing as well as
   case processing timeliness. Tax Exempt and Government Entities Division management
   is also in the process of developing a FY 2012 Hiring Initiative to meet future program
   needs.
e. The EP function is working with the Tax Exempt and Government Entities Division’s
   Strategic Planning Office to develop a survey for users of the VCP to obtain feedback on
   an ongoing basis to help identify and make further improvements to the program.
Office of Audit Comment: Tax Exempt and Government Entities Division management
provided an alternate corrective action for our recommendation to expand the VCP Revenue
Procedure to include a checklist that provides retirement plan sponsors with specific options
for identifying the type of retirement plan failure that led to the VCP application and the
actions they are taking to correct them. We recommended this as an interim step until a
VCP application form could be developed. Management commented that it currently has two
sample application forms and plans to create an official IRS form. Since management has
developed sample application forms which include the information we recommended, we agree
with the IRS’ alternate corrective action.




                                                                                      Page 18
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’ efforts to 1) improve the efficiency of
processing VCP applications to ensure timely processing and 2) increase participation through
outreach efforts. To accomplish the objective, we:
I.     Obtained current and historical staffing and receipt information and determined whether
       the current staffing and procedures enabled the EP function to timely process
       VCP applications.
       A. Evaluated staffing devoted to the VCP during FYs 2006 through 2008 in comparison
          to VCP application receipts, inventory-in-process, and VCP closures.
       B. Evaluated whether existing processes and procedures were sufficient for timely
          processing VCP applications and ensuring that incoming applications were
          appropriate for the VCP.
           1. Obtained an extract from the EP Compliance Resolution System Research and
              Inventory Management System to identify any processing delays by quantifying
              the amount of time expended to control, assign, review, and close
              VCP application cases. This was accomplished by selecting a judgmental sample
              of 220 (8.8 percent) of 2,492 closed VCP application cases from FY 2008. We
              used judgmental sampling because we did not plan to project our results. We did
              not verify the completeness of the System because we did not have a basis for
              comparison. In addition, we did not verify the accuracy of the data in the System
              because doing so was not necessary to accomplish our audit objective.
           2. Determined whether EP function management had made modifications to or
              considered modifying its staffing to address the increase in VCP receipts.
           3. Interviewed management officials and frontline staff to obtain their input on
              whether existing Internal Revenue Manual processes and procedures contained
              sufficient detail for both timely processing VCP applications and identifying cases
              that should be worked outside of the VCP.
           4. Determined whether any analyses had been conducted to identify inefficiencies
              and update processes and procedures to improve screening, determining
              eligibility, or overall processing of VCP applications.




                                                                                           Page 19
               Additional Process Improvements Are Needed Due to Continued
               Growth in the Voluntary Correction Program for Retirement Plans



II.    Evaluated the EP function’s outreach efforts to increase retirement plan sponsors’
       participation in the VCP and what measures EP function management used to evaluate
       the program’s performance.
       A. Interviewed EP function management and reviewed both existing Internal Revenue
          Manual procedures and EP function directives to identify what processes are in place
          to measure the VCP.
           1. Determined whether the Internal Revenue Manual contained any measures
              (e.g., days to process VCP applications) for the VCP.
           2. Identified any division-level documentation containing measures or goals
              (e.g., volume of closures) for the VCP.
       B. Determined the extent and nature of completed and planned actions by EP function
          management to make small employers more aware of the VCP and to address
          recommendations and suggestions from the Advisory Committee on Tax Exempt and
          Government Entities.
           1. Interviewed management to determine whether the IRS developed promotional
              materials for use at the 2008 IRS Tax Forum and obtained feedback on what
              methods were used to gauge the overall success of these efforts (e.g., any statistics
              showing attendance at VCP-related presentations and documentation for any
              issues or questions submitted by preparers).
           2. Obtained documentation of other outreach methods to make the retirement plan
              community more aware of the types of voluntary compliance programs that are
              available. We determined if EP function management had statistical data for
              gauging how many practitioners are using available educational materials as well
              as any past/ongoing efforts to increase their awareness of such information.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. While part of our objective was
to assess IRS efforts to improve the efficiency in the processing of VCP applications, our
assessment did not evaluate controls for ensuring accuracy of actions. Instead, the assessment
was generally limited to activities relevant to the timely processing of VCP applications. In
addition, we reviewed outreach efforts to increase participation in the VCP. We determined that
the following internal controls were relevant to our audit objectives: the EP function’s policies,
procedures, and practices for processing VCP applications and the EP function’s outreach efforts
to increase retirement plan sponsors’ participation in the program. We evaluated these controls

                                                                                          Page 20
              Additional Process Improvements Are Needed Due to Continued
              Growth in the Voluntary Correction Program for Retirement Plans



by interviewing management and other employees associated with the processing of
VCP applications, reviewing application case files, and reviewing materials used to promote the
VCP.




                                                                                        Page 21
             Additional Process Improvements Are Needed Due to Continued
             Growth in the Voluntary Correction Program for Retirement Plans



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Steve T. Myers, Lead Auditor
John M. Jarvis, Auditor
Donald J. Martineau, Auditor
Jeffery R. Stieritz, Auditor




                                                                                  Page 22
             Additional Process Improvements Are Needed Due to Continued
             Growth in the Voluntary Correction Program for Retirement Plans



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Employee Plans, Rulings and Agreements, Tax Exempt and Government Entities
Division SE:T:EP:RA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 23
   Additional Process Improvements Are Needed Due to Continued
   Growth in the Voluntary Correction Program for Retirement Plans



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 24
Additional Process Improvements Are Needed Due to Continued
Growth in the Voluntary Correction Program for Retirement Plans




                                                         Page 25
Additional Process Improvements Are Needed Due to Continued
Growth in the Voluntary Correction Program for Retirement Plans




                                                         Page 26
Additional Process Improvements Are Needed Due to Continued
Growth in the Voluntary Correction Program for Retirement Plans




                                                         Page 27
Additional Process Improvements Are Needed Due to Continued
Growth in the Voluntary Correction Program for Retirement Plans




                                                         Page 28
